Supreme Court, U S"
FILED

JAN 2 9 2020
OFFICE OF THEn

no.

i9- mo

3ht tfje

Supreme Court of tfje fHntteb States?
RICKY W. CAMPBELL,
Petitioner,
v.
CHAD WOLF,
Acting Secretary of Homeland Security,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
PETITION FOR A WRIT OF CERTIORARI

Ricky Campbell
Petitioner Pro Se
1026 Paramount Circle
Gastonia, NC 28052
(704)617-1911
RICKCAMPBELL9006@BELLSOUTH.NET

March 18,2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
MAR 2 3 2020

QUESTIONS PRESENTED
1. If Fed. R. Civ. P. Rule 12(b)(1), grants 21 days
for a party to respond after being served, why would
the Fourth Circuit Court uphold an allegation by the
Respondent that the Petitioner did not file a timely
response, which was filed on the 15th day after it
was received?
2. 42 U.S.C. § 2000e-5(e)(l), states that a plaintiff
“shall” file an employment discrimination charge with
the Equal Employment Opportunity Commission
(EEOC) either 180 or 300 days after an “alleged
unlawful employment practice occurred.”; why would
the Fourth Circuit Court uphold an argument that a
claim not filed within 45 days and less than 180 days
was not timely filed?
3. Would the Fourth Circuit Court be considered
to have ignored Federal Rules of Civil Procedures when
it stated in its Order that the (II. Legal Standard)(A.)
Motion to Dismiss Under Fed. Civ. P. 12(b)(1), Plaintiff
failed to exhaust the requirement of antidiscrimina­
tion functions as a jurisdictional bar, when in fact
the Plaintiff clearly demonstrated that he exhausted
all requirements and there were no other avenues to
be explored?
4. Did the Fourth Circuit Court ignore the U.S.
Supreme Court ruling when it failed to consider the
U.S. Supreme Court’s affirmation in Staub v. Proctor
Hospital, 131 S.Ct. 1186, 1194 (2011), when stating in
its order that Plaintiffs claim cannot prove a causal
connection between his prior EEO activity and his
non-selection for a STSO position? The Supreme Court
ruling states that an employer is liable when a
supervisor acting with a discriminatory motive uses

11

a delegated authority to cause an adverse employ­
ment action.
5. Did the Fourth Circuit ignore the U.S. Supreme
Court ruling when it ignored the fact that Plaintiff met
all the requirements of a causal connection concerning
the Respondent’s Assistant Federal Security Director
(AFSD Stanton), his prior EEO activity and his non­
selection for an STSO position?

Ill

LIST OF PROCEEDINGS
United States Court of Appeals, Fourth Circuit
No. 19-1427
Ricky W. Campbell, Plaintiff-Appellant v.
Kevin McAleenan, Acting Secretary, Department of
Homeland Security, Defendant-Appellee
Date of Final Opinion: August 26, 2019
Date of Rehearing Denial: November 5, 2019

United States District Court of the Western District
of North Carolina
3:17-cv-707-RJC-DCK
Ricky W. Campbell, Plaintiff v. Kirsten M. Nielsen,
Secretary ofHomeland Security, Defendant
Date of Final Order: March 15, 2019

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..............................

1

LIST OF PROCEEDINGS.................................

111

TABLE OF AUTHORITIES..............................

vi

OPINIONS BELOW..........................................

1

JURISDICTION..................................................

1

STATUTORY PROVISIONS INVOLVED.......

2

STATEMENT OF THE CASE...........................

4

REASONS FOR GRANTING THE PETITION...... 10
CONCLUSION

11

V

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Opinions and Orders
Opinion of the United States Court of Appeals
for the Fourth Circuit (August 26, 2019)....

la

Order of the United States District Court
of the Western District of North Carolina
(March 15, 2019)..........................................

3a

Rehearing Order
Order of the United States Court of Appeals
for the Fourth Circuit Denying Petition
for Rehearing En Banc (November 5, 2019).... 23a

VI

TABLE OF AUTHORITIES
Page
CASES
Staub v. Proctor Hospital,
131 S.Ct. 1186 (2011)

i, 7, 9, 10

STATUTES
28 U.S.C. § 1254(1)...................

1

38 U.S.C. § 4311 (C)(1).............

7

42 U.S.C. § 2000e-5(e)(l)...........

i, 2, 6, 10

N.C. Gen. Stat. 1A-1, Rule 56(c)

3, 9

JUDICIAL RULES
Fed. R. Civ. P. 12(b)(1)

i, 5, 10

1

ran
OPINIONS BELOW
Memorandum Opinion of the United States Court
of Appeals for the Fourth Circuit is affirmed and is
reported at App.la and is published on August 26,
2019. Order of Rehearing Denial is stated on November
5, 2019 and reported at App.23a. Order of the United
States District Court of the Western District of North
Carolina stated on March 15, 2019 is reported at
App.3a.

JURISDICTION
This Court has jurisdiction of this petition to
review the judgment of United States Court of Appeals
for the Fourth Circuit pursuant to 28 U.S.C. § 1254(l).
The Fourth Circuit’s memorandum opinion was filed on
October 2, 2019 and Petitioners’ Petition for Rehearing
and Rehearing En Banc was denied on November 5,
2019 and received by the Petitioner on November 8,
2019.

2

STATUTORY PROVISIONS INVOLVED
42 U.S.C. § 2000e-5(e)(l)
(e) Time for filing charges; time for service of
notice of charge on respondent; filing of charge
by Commission with State or local agency; seniority
system
(l) A charge under this section shall be filed
within one hundred and eighty days after
the alleged unlawful employment practice
occurred and notice of the charge (including
the date, place and circumstances of the
alleged unlawful employment practice) shall
be served upon the person against whom such
charge is made within ten days thereafter,
except that in a case of an unlawful employ­
ment practice with respect to which the
person aggrieved has initially instituted
proceedings with a State or local agency
with authority to grant or seek relief from
such practice or to institute criminal proceed­
ings with respect thereto upon receiving
notice thereof, such charge shall be filed by
or on behalf of the person aggrieved within
three hundred days after the alleged unlaw­
ful employment practice occurred, or within
thirty days after receiving notice that the
State or local agency has terminated the
proceedings under the State or local law,
whichever is earlier, and a copy of such charge
shall be filed by the Commission with the
State or local agency.

3

Fed. R. Civ. P. 12(l)(b)
(b) How to Present Defenses. Every defense to a
claim for relief in any pleading must be asserted
in the responsive pleading if one is required. But a
party may assert the following defenses by motion:
(l) lack of subject-matter jurisdiction;
N.C. Gen. Stat. 1A-1, Rule 56(c)—Summary Judgment
(c) Motion and proceedings thereon—The motion
shall be served at least 10 days before the time
fixed for the hearing. The adverse party may
serve opposing affidavits at least two days
before the hearing. If the opposing affidavit is
not served on the other parties at least two days
before the hearing on the motion, the court may
continue the matter for a reasonable period to
allow the responding party to prepare a response,
proceed with the matter without considering the
untimely served affidavit, or take such other
action as the ends of justice require. For the
purpose of this two-day requirement only,
service shall mean personal delivery, facsimile
transmission, or other means such that the
party actually receives the affidavit within the
required time.
The judgment sought shall be rendered forthwith
if the pleadings, depositions, answers to inter­
rogatories, and admissions on file, together with
the affidavits, if any, show that there is no genuine
issue as to any material fact and that any party
is entitled to a judgment as a matter of law. A
summary judgment, interlocutory in character,
may be rendered on the issue of liability alone
although there is genuine issue as to the amount of

4

damages. Summary judgment, when appropriate,
may be rendered against the moving party.

STATEMENT OF THE CASE
On December 14, 2012, Plaintiff filed an EEO
complaint wherein he claimed that the Agency dis­
criminated against him in reprisal for his prior
protected EEO activity under Title VII and subjected
him to a hostile work environment when:
(1) On or about February 4, 2012, Complainant
was not selected for the Supervisory Trans­
portation Security Officer (STSO) position
advertised via Vacancy Announcement (VA)
CLT-12-444666.
(2) On or about April 5, 2012, Complainant was
not selected for the Supervisory Trans­
portation Security Officer (STSO) position
advertised via Vacancy Announcement (VA)
CLT-12-469756.
(3) On or about August 4, 2012, Complainant
was not selected for the Supervisory Trans­
portation Security Officer (STSO) position
advertised via Vacancy Announcement (VA)
CLT-12-516492.
(4) Between August 21 and 23, 2012, Complain­
ant was denied the opportunity to work
overtime hours.
(5) On February 22, 2013 a Transportation Secu­
rity Manager stated that the scheduled over­
time shift Complainant had worked the

5

previous day was “illegal”, and Complainant
was not paid for the hours he had worked.
The Defendant has alleged:
A.

That Plaintiffs claims 1, and 2 lack subject
matter jurisdiction because Plaintiff did not
properly and timely exhaust his admin­
istrative remedies.

B.

That Plaintiffs claim 3 cannot prove a causal
connection between his prior EEO activity
and his non-selection for a STSO position.

C.

That Plaintiffs claim 4 cannot prove a causal
connection between his prior EEO activity
and denial of the opportunity to work over­
time.

D.

That Plaintiffs claim 5 cannot prove a causal
connection between his prior EEO activity
and the refusal to pay him overtime wages for
hours worked during his regularly scheduled
shift.

Claim A
Fed. R. Civ. P. Rule 12(b)(1), grants 21 days for a
party to respond after being served. The Plaintiff
received Defendant’s Motion on March 8, 2018. Plain­
tiffs response was filed on March 23, 2018. Plaintiffs
response was filed 15 days after it was received.
Plaintiff s response was timely.
Prior to filing this action in District Court:
Plaintiff filed an EEO complaint and litigated all claims
of retaliation in administrative proceedings before
the EEOC. On October 5, 2012, Plaintiff initiated the

6

administrative complaint process by contacting an
EEO counselor.
Plaintiff filed a formal administrative complaint
with TSA on December 4, 2012. After an independent
EEO investigator investigated Plaintiffs claims, the
investigator issued a report of investigation (ROI).
Plaintiff requested a hearing before an EEOC
Administrative Judge. After the parties had the
opportunity to conduct full discovery, the Administra­
tive Judge granted TSA’s motion for summary judg- .
ment on all six of Plaintiff s claims.
Plaintiff appealed the Administrative Judge’s
order to the EEOC Office of Federal Opera­
tions (“OFO”). On October 27, 2017, OFO
denied the appeal and affirmed the Admin­
istrative Judge’s order.
On December 6, 2017 Plaintiff timely filed this
action with the District Court.
Plaintiff has clearly and timely exhausted all
possible administrative remedies.
Under Title VII of the Civil Rights Act of
1964, a plaintiff “shall” file an employment
discrimination charge with the Equal Employ­
ment Opportunity Commission (EEOC) either
180 or 300 days after an “alleged unlawful
employment practice occurred.
42 U.S.C. § 2000e-5(e)(l).
The United States Court of Appeals for the Ninth
Circuit held that a Plaintiff may sue on claims that
would ordinarily be time barred so long as they
either are “sufficiently related” to incidents that fall

7

within the statutory period or are part of a systematic
policy or practice of discrimination that took place, at
least in part within the limitations period.
The Defendant does not disagree that claim num­
ber 3 was filed within the 45 day qualifying time period.
Claims 1 and 2 each fall within 180 days of the last
incident.
Furthermore, EEOC’s Ongoing Harassment /
Hostile Work Environment Clause state that you
must file your charge within 180 or 300 days of the last
incident of harassment, they will look at all incidents
of harassment when investigating the charge, even if
the earlier incidents happened more than 180/300
days earlier.

Claim B
The Supreme Court affirmed in Staub v. Proctor
Hospital, 131 S.Ct. 1186, 1194 (2011) that anyone
who played a role in this action had a unlawful motive
that satisfies 4311(C)(1) and the burden shifts to the
employer to show it would have done the same thing
anyway.
Further, an employer is liable citing Staub v.
Proctor Hospital, when a supervisor acting with a
discriminatory motive uses a delegated authority to
cause an adverse employment action.
The Supreme Court further states that the actions
of the Supervisor committing the adverse act could
be acting with or without knowledge that his actions
are in violation of Title VII.
In order to establish a prima facie case Plaintiff
must allege (l) that he engaged in protected conduct,
(2) that he suffered and adverse action, and (3) that

8

“there was a causal connection between the protected
activity and the asserted adverse action.”
Plaintiff has established that Defendant’s DFSD
Jordan (Selecting Official) met all the criteria for the
establishment of a prima facie case.
Claims number 1, 2, 3, 4 and 6 each become a part
of the established prima facie.
In addition, Defendant’s AFSD Stanton (Recom­
mending Official), denied the Plaintiff the opportu­
nity to interview for the posted position of Supervisor
(STSO).
The Plaintiff filed a claim of discrimination
against Defendant’s AFSD Stanton (Recommending
Official). Plaintiff accused AFSD Stanton of being a
Racist under Title VII and that Claim was being inves­
tigated by Defendant’s DFSD Kurt Jordan (Selecting
Official) while the Plaintiff was interviewing for a
promotion referenced in Claims number 2, and 3, with
AFSD Stanton as the Recommending Official.
Plaintiff was not recommended by AFSD Stanton.
The Plaintiff had filed an EEOC charge and Civil
Suit against DFSD Jordan, who was the Selecting
Official in Plaintiffs Claims 1, 2, and 3. DFSD Jordan
was investigating AFSD Stanton, Recommending
Official, on Title VII Discrimination charges against
Plaintiff while AFSD Stanton was the Recommending
Official on Plaintiffs Claims number 2 and 3.
Clearly meeting all the criteria for the establish­
ment of a prima facie case.

9

Claim C
The law is clear that summary judgment is only
appropriate if the pleadings, depositions, answers to
interrogatories, and admissions of file, together with
the affidavits, if any, show that there is no genuine
issues as to any material fact and that any party is
entitled to a judgment as a matter of law. N.C. Gen.
Stat. 1A-1, Rule 56(c) (2011).
There exists a genuine issue of material fact
that only the examination of all pleadings, depositions,
answers to interrogatories and admissions of file can
satisfy.
Further stating, anytime there is dispute of
material fact, then summary judgment is inappro­
priate.
Claim D
Regarding Plaintiffs claims 5, Defendant has not
offered any supporting documentation that would
support its actions.
Plaintiff has offered Agency documentation that
would support that an employee should have been paid
for at least 2 hours of overtime even if he reported to
work and was sent home without working one minute.
Plaintiff s claims 4 and 5 falls under the jurisdic­
tion of Staub v. Proctor Hospital, 131 S.Ct. 1186, 1194
(2011). An employer is liable citing Staub v. Proctor
Hospital, when a supervisor acting with a discrim­
inatory motive uses a delegated authority to cause
an adverse employment action.
The Supreme Court further states that the actions
of the Supervisor committing the adverse act could

10
be acting with or without knowledge that his actions
are in violation of Title VII.

REASONS FOR GRANTING THE PETITION
This Court should grant this petition and review
the judgment of the court of appeals because its
decision is in conflict with Fed. R. Civ. P. Rule 12(b)(1),
granting 21 days for a party to respond after being
served.
The court of appeals affirmation of Defendant’s
allegation that Plaintiff failed to exhaust the require­
ment of antidiscrimination functions as a jurisdictional
bar, conflicts with Title VII of the Civil Rights Act of
1964; a plaintiff “shall” file an employment discrimina­
tion charge with the Equal Employment Opportunity
Commission (EEOC) either 180 or 300 days after an
“alleged unlawful employment practice occurred.” 42
U.S.C. § 2000e-5(e)(l)”,
The Defendant does not disagree that claim num­
ber 3 was filed within the 45 day qualifying time
period. Claims 1 and 2 each fall within 180 days of
the last incident.
EEOC’s Ongoing Harassment/Hostile Work Envi­
ronment Clause states; that you must file your charge
within 180 or 300 days of the last incident of harass­
ment, and the Fourth Circuit ruling conflicts with this
court’s ruling in Staub v. Proctor Hospital, 131 S.Ct.
1186, 1194 (2011). An employer is liable citing Staub
v. Proctor Hospital, when a supervisor acting with an
adverse employment action.

11
Further stating, anytime there is dispute of
material fact, then summary judgment is inappropriate.

CONCLUSION
* 4S

For the above and foregoing reasons, Petitioner
request the issuance of a writ of certiorari to the
United States Court of Appeals for the Fourth Circuit.
Respectfully submitted,
Ricky Campbell
Petitioner Pro Se
1026 Paramount Circle
Gastonia, NC 28052
(704)617-1911
RICKCAMPBELL9006@BELLSOUTH.NET

March 18,2020

Blank Page

!

